<html>
<title> - VIOLENCE OUTSIDE THE TURKISH AMBASSADOR'S RESIDENCE: THE RIGHT TO PEACEFUL PROTEST</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





   VIOLENCE OUTSIDE THE TURKISH AMBASSADOR'S RESIDENCE: THE RIGHT TO 
                            PEACEFUL PROTEST

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 25, 2017

                               __________

                           Serial No. 115-36

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-558PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                  
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
TED POE, Texas                       BRAD SHERMAN, California
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
JEFF DUNCAN, South Carolina          WILLIAM R. KEATING, Massachusetts
F. JAMES SENSENBRENNER, Jr.,         DAVID N. CICILLINE, Rhode Island
    Wisconsin                        ROBIN L. KELLY, Illinois
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Lusik Usoyan, founder and president, Ezidi Relief Fund.......     6
Mr. Murat Yasa, local businessman and protest organizer..........    11
Mr. Aram Hamparian, executive director, Armenian National 
  Committee of America...........................................    17
Ms. Ruth Wedgwood, Edward B. Burling professor of international 
  law and diplomacy, School of Advanced International Studies, 
  Johns Hopkins University.......................................    22

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Lusik Usoyan: Prepared statement.............................     9
Mr. Murat Yasa: Prepared statement...............................    13
Mr. Aram Hamparian: Prepared statement...........................    19
Ms. Ruth Wedgwood: Prepared statement............................    24

                                APPENDIX

Hearing notice...................................................    36
Hearing minutes..................................................    37
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    38

 
                      VIOLENCE OUTSIDE THE TURKISH
                      AMBASSADOR'S RESIDENCE: THE
                       RIGHT TO PEACEFUL PROTEST

                              ----------                              


                         THURSDAY, MAY 25, 2017

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 12:00 p.m., in 
room 2200 Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. I call this meeting of the Europe, 
Eurasia, and Emerging Threats Subcommittee to order.
    Apologies to my colleagues for the short notice that we 
have given them but, due to the emergency nature of what has 
occurred, I believe strongly that we need to be heard on the 
record as soon as possible.
    Nine days ago on May 16th, the President Turkey was 
visiting in Washington on a formal visit to the United States. 
It was during that trip that a group of American protesters 
that were concerned about the growing repression by the Erdogan 
regime in Turkey, gathered outside the residence of the Turkish 
Ambassador to exercise their right, as Americans, to have a 
peaceful assembly and to express their opinions.
    Incredibly, security officers associated directly with the 
President, President Erdogan, his nominal body guards, broke 
past police lines and unashamedly attacked peaceful protesters 
in view of all the rest of us Americans.
    The video of this ghoulish and fascistic attempt is 
appalling. At least 11 innocent Americans were bloodied and 
some of the Turkish security members were so brazen as to also 
scuffle with U.S. law enforcement personnel who were there 
trying to tone done the melee.
    Furthermore, video evidence suggests that President 
Erdogan, himself, looked on as the attack took place. I find it 
hard to believe that well-trained security officials would 
watch such an explosive, unprovoked attack without the orders 
of their superior, especially knowing he was going to be there 
to witness it.
    The attempt by members of the Turkish security service is 
an affront to the democratic values that we hold dear in the 
United States and was an act of supreme disrespect for the 
American people and our institutions.
    This situation has only been made worse by the ongoing 
reaction by the Turkish Government, which summoned the U.S. 
Ambassador in Ankara, summoned to him to protest the actions of 
American law enforcement, as if it was aggressive.
    Well, that, to have a president of a country, from another 
country, who watched his bully boys beat Americans into the 
ground and bloody them, and for him to protest our people, that 
is a supreme insult and I hope all Americans understand the 
message that he is giving us.
    I will refrain from using a hand gesture of what he is 
giving us but we have a message for him: We don't need people 
like you visiting the United States anymore. You don't 
represent your people. When we want to talk to the Turks, we 
want to talk to Turks who want to have a democratic society and 
not to their oppressor and a man who is trying to create 
Islamofascism in his own country with him as the head fascist.
    This arrogance is beyond the pale. Erdogan should never 
again be invited to the United States. He is an enemy of 
everything we stand for. More importantly, he's an enemy of his 
own people and we should side with the people of Turkey, not 
their oppressor. Perhaps such an incident would not be so 
offensive, except that it fits a pattern of broader political 
violence and suppression that has come to characterize the 
current Turkish Government, both at home and abroad.
    I remind everyone that a similar incident occurred during 
President Erdogan's previous visit to Washington. Last March, 
while Erdogan spoke at a Brookings Foundation, his guards 
attacked protesters and journalists trying to cover the event. 
The repressive and authoritarian nature of the Erdogan 
Government has been developing and just basically becoming into 
being right in front of our eyes. A country that has been such 
a long friend of the United States, the people of Turkey who 
stood with us during the Cold War, when it was very risky to do 
so. And yes, the Soviet Union was pumping, at that time, 
millions of dollars into destabilized Turkey at that time but 
they stood with us. And now to have this leader, supposed 
leader, basically declaring that friendship is over and 
declaring that his people no longer have those democratic 
rights that they have enjoyed for these years, well, it is 
totally unacceptable.
    And again, I am very proud that today we have a piece of 
legislation that is going through and will be quickly put 
before the body, as soon as we return in about a week.
    So with that said, my friend, Mr. Cicilline, will be having 
his opening statement.
    Mr. Cicilline. Thank you, Mr. Chairman, for calling this 
meeting today and for giving us the chance to explore in detail 
what happened at the Turkish Ambassador's residence on May 
16th, just a little over a week ago when President Erdogan's 
so-called security forces rudely assaulted peaceful protesters.
    I want to thank our witnesses for being here today and to 
note that Ms. Usoyan, Mr. Yasa, and Mr. Hamparian were in 
attendance at the protest and will be sharing their firsthand 
accounts of what happened with us today. And I am glad that 
none of you were seriously injured in the incident on the 16th. 
And I thank all of you for being with us, as well as Professor 
Wedgwood for being here today to discuss this incident and how 
it will affect U.S.-Turkish relations going forward.
    President Erdogan of Turkey recently consolidated his own 
control in a referendum giving him sweeping authority, as we 
all know, recently made an official visit to the United States 
to meet with President Trump. In that meeting, the two leaders 
discussed a variety of mutual interests, including the fight 
against ISIS, the failed coup plot against Erdogan last year, 
and other mutual interests.
    I think it is important to note, to point out one thing 
that, by all accounts, was not discussed and that is Turkey's 
ongoing crackdown against fundamental freedoms, including 
freedom of the press and peaceful assembly. At no time did 
President Trump raise concerns about the crackdown being 
carried out by the Erdogan regime against dissidents, 
journalists, minorities, and anyone who speaks out against his 
government's abuses.
    Later that same day, President Erdogan was leaving the 
Turkish Ambassador's residence when his guards became involved 
in an altercation with peaceful protesters, violently attacking 
Americans and others who were exercising their right to free 
speech on U.S. soil.
    Multiple videos from the scene showed Turkish security 
forces beating, kicking, and otherwise assaulting protesters, 
with the DC Police officers attempting to break up the 
altercation. I understand we are going to see some of the video 
before this committee in just a few minutes. At least 11 
individuals were seriously injured in the attack, with two 
requiring hospitalization.
    Equally disturbing is the video that appears to show 
President Erdogan surveying the scene of protesters in front of 
him, then verbally encouraging his guards to attack. It is my 
understanding that two Turkish security officers were detained 
in relation to their involvement in this incident but were then 
released, due to diplomatic immunity. I also understand that 
there is still an active investigation into the incident by the 
Washington, DC Police Force.
    Our State Department and Secretary Tillerson have 
rightfully condemned this egregious action by Turkish security 
forces and have called the Turkish Ambassador in to raise their 
concerns. These are good first steps but by no means do they 
resolve this issue.
    There are a few steps that absolutely must be taken as 
follow-up to this horrific incident. The United States 
Government should request a waiver of immunity for anyone 
involved in the violent attack against peaceful protesters. The 
U.S. Government must make clear that we expect full cooperation 
by the Turkish Government into the investigation of this crime. 
The U.S. Government must make clear to Turkey and any other 
government who wishes to have a presence in the United States 
that our laws, including the freedom of speech and assembly are 
the binding laws of the land when they are on U.S. soil. And 
officials of the U.S. Government, including the President and 
Secretary of State Tillerson must make it clear that the 
protection of human rights and fundamental freedoms, including 
the right to free speech and freedom of assembly are American 
values and will be prioritized in our relationships with every 
country with whom we have relations.
    To close, I want to emphasize that freedom, dignity, and 
equality are not just American values, they are universal 
values that every person deserves, no matter where they are 
born. This idea that we can somehow leave our values at our 
shore's edge to focus on other priorities is inherently false. 
Our values make us who we are; they guide how we live our lives 
and how we interact in the world.
    The United States is a global leader precisely because 
people everywhere strive to achieve the freedoms that are 
afforded to us in our Constitution. When our top leaders say 
things such as we are not here to lecture or we don't expect 
others to adopt our values, it debases who we are, and the very 
ideals that form our democracy, and it has dire consequences.
    I don't pretend that the Turkish Government has suddenly 
changed its tune because of the words of a few Government 
officials. They have been behaving badly on our soil for years. 
But this was a particularly brazen act on the heels of a highly 
publicized meeting with our President and one has to wonder why 
President Erdogan felt so emboldened that in the bright DC 
sunshine, in front of cameras and hundreds of people, he sent 
his attack dogs out.
    As Secretary Tillerson said, this is simply unacceptable. 
Now, we must decide how we are going to respond as a country 
and as government representatives to this brazen assault on our 
people and our values. I think that the resolution that was 
passed by the full Foreign Affairs Committee this morning 
condemning this is an excellent start and I look forward to 
working with my colleagues to determine the appropriate 
reaction going forward.
    And again, I thank the chairman for calling this meeting 
and I yield back.
    Mr. Rohrabacher. Thank you very much. And Mr. Brad Sherman 
for 5 minutes.
    Mr. Sherman. Thank you.
    This was not just an attack on American values, on 
international values of human rights, this was an attack on 
American sovereignty. Quasi-military forces of a foreign nation 
beat and attacked Americans on American soil. This was 
deliberate because Erdogan believes that this helps him 
politically back in Turkey. We have to demonstrate to the world 
that aggression on American soil is not going to pay off. We 
need to do more than just condemn what happened, not only 
recently but, as others have pointed out, at Brookings as well.
    First, we have got to stop--we have got to emphasize that 
unless we get a formal apologize from Erdogan, himself, we will 
not even discuss with them their concerns about the YPG. We 
have already decided that these valuable allies in the fight 
against ISIS will get American arms. But the people of Turkey 
have to understand that we are not even willing to listen to a 
government that attacks Americans on American soil and brags 
about it, and boasts about it, and tries to benefit from it 
back in its own country.
    The second thing we should do is prohibit the purchase or 
sale of the debt of the Turkish Government by Americans or 
American banks, and financial institutions, and exchanges, 
again, until we get a formal apology from Erdogan.
    I realize such an apology might be politically difficult 
for him. That is the point. We have to illustrate this or we 
will have other leaders attacking Americans, both in their 
countries and in ours, for their own political reasons.
    Why was Erdogan so emboldened? Because we have had an 
American Government that has cowered for generations, rather 
than recognize the Armenian genocide. If we are so weak that we 
are a party to genocide denial, who should respect our laws, or 
our sovereignty, or think that they will pay any price for 
anything they do here in our country?
    Finally, the actions of those thugs have been compounded by 
the lies of the Turkish Ambassador. Keep in mind Erdogan was 
never in any danger whatsoever. The protesters were peaceful; 
they did not provoke any pro-Erdogan demonstrators. The 
statement of the Ambassador to the contrary is a lie on top of 
physical aggression and he should be asked to leave our country 
immediately.
    So this is really a test for the United States. We know who 
Erdogan is. The question is: Who are we? Will we continue to be 
coward on the issue of the events of 1915 to 1923? Will we 
continue to walk on eggshells when we have a valuable ally in 
the fight against ISIS? And will we continue to see American 
banking institutions finance the Turkish Government at a time 
when Erdogan is able to extract political benefit from this 
attack on America?
    We will see how we respond. The resolution we passed in 
committee today needs to be just the first step.
    I yield back.
    Mr. Rohrabacher. Thank you, Mr. Sherman.
    And I will introduce the witnesses now, and then we will 
show the video, and then we will return to the witnesses. I 
would hope that 5 minutes max--we all have to be out of here no 
later than two o'clock. So, we all need to watch the schedule 
on this. And again, I will introduce the witnesses, and then we 
will see the video, and then go to the testimony.
    As witnesses today, we have three people and we have just 
been joined by a fourth who were present outside the Turkish 
Ambassador's residence on the 16th. Ms. Lucy Usoyan is a 
founder and president of the Ezidi Relief Fund, an organization 
which advocates for refugees and displaced persons in the 
region. She was severely beaten and, I understand, she is now, 
just now recovering.
    Mr. Murat Yasa is a local small business owner and an 
organizer within the Kurdish community. He was involved in 
leading some of the protests that took place during President 
Erdogan's visit. He, too, received a pummeling by members of 
the Turkish Security Service for his efforts.
    And Mr. Aram Hamparian, I hope I pronounced it correctly. 
Okay, he is the executive director of the Armenian National 
Committee of America, a political organization that represents 
the interests of Armenian-American community. He, too, was 
present for the attack on the 16th.
    Finally, we have Ms. Ruth Wedgwood, a professor of 
international law and diplomacy at Johns Hopkins University 
School of Advanced International Studies. She has served on the 
U.S. Secretary of State's Advisory Committee on Private and 
Public International Law and she was a U.S. delegate to the 
U.N. Human Rights Committee and a member of the Pentagon 
Defense Policy Advisory Board, among many other things. She has 
earned her juris doctorate from Yale University and we are 
very, very grateful that on short notice she was able to join 
us.
    Now with that, I think I would draw attention to my 
colleagues and to those who have come to the hearing today to 
the video which was compiled--how was this compiled? The people 
who were there, I believe this is from hand-held telephone 
cameras. Isn't it wonderful that we have that these days?
    Aram, did you take the video?
    Mr. Hamparian. Some of it is from Voice of America and 
others from my cell phone.
    Mr. Rohrabacher. Okay, all I know is that I believe that 
the iPhone has done a lot to perfect our country by holding our 
law enforcement people accountable and also to protect our law 
enforcement people against unjust charges.
    So with that said, here it is.
    [Video shown.]
    Mr. Rohrabacher. Jesus. Look how courageous they are. 
Jesus.
    Is that it? Let me note that there was one video that I saw 
that wasn't included in this that had a picture of Erdogan, 
himself, observing this attack.
    All of us should understand this is the United States of 
America. This is not Turkey.
    This foreign leader, who treats his own people this way 
should understand that we are demanding an apology to these 
people, these Americans who were beaten here in the United 
States. And this is the way--if you think he is treating our 
people this way, how do you think he treats his own people? We 
know that. And he has taken a friendly country filled with 
people who like the United States and are friends of ours and 
turned them into prisoners and turned them into victims that we 
cannot ignore. We are on the side of a democratic Turkey and 
not this fascist, Islamic fascist dictatorship that Erdogan is 
superimposing on this people with that kind of violence.
    Now, with that said, we will go to our witnesses. Again, we 
have got about 5 minutes a piece and 5 minutes for questions 
because we have got to be out of here at two o'clock. That 
gives us 1\1/2\ hours.
    So, Ms. Lucy Usoyan, who I have already introduced.

  STATEMENT OF MS. LUSIK USOYAN, FOUNDER AND PRESIDENT, EZIDI 
                          RELIEF FUND

    Ms. Usoyan. Thank you so much. Well, with given opportunity 
I would like to first express my gratitude to Chairman Dana 
Rohrabacher, and Chairman Ed Royce, and all ranking members for 
sponsoring this hearing in such a short time frame.
    As a citizen of United States of America, I feel very 
confident for my rights and I am honored to be here to testify 
on the peaceful protest attacked on May 16.
    On May 16th, I was among those peaceful protesters by 
exercising my freedom of speech. I was expressing my personal 
opinion on President Erdogan's White House welcome event. I 
believe that individuals like Mr. Erdogan, who systematically 
abuse his authority by violating human rights, oppressing 
press, imprisoned second largest opposition party, both co-
chairs and its members, committing war crimes, and strongly 
supporting ISIS terrorist group has no space in the White House 
of United States of America.
    I am an Ezidi Kurd dissident by origin and my Ezidi people 
have suffered significantly in the aftermath of the ISIS attack 
on Sinjar District on August 2014. Moreover, March 2016 
Erdogan's visit to Washington, DC, he had an event at Brookings 
Institute, where I and many Armenians, Syrians, Greeks, and 
Kurds had joined to a peaceful protest. As a result of 
Erdogan's angriness, he has contacted President of Azerbaijan, 
Aliyev, to attack Armenian Artsakh for 4 days.
    In the aftermath of 4 days' attack, around 80 Armenian 
soldiers were killed and one was Ezidi origin soldier. He was 
beheaded by Ezidi soldiers and he happened to be my cousin.
    So, I have many rights to express my angerness with 
Erdogan's abusive behavior. I was part of the peaceful 
protesters in the front of the White House. And once the event 
was over, me and others, we have walked toward Massachusetts 
Avenue to Turkish Ambassador's residency.
    There was a large group of people in front of Turkish 
Ambassador's residency. As soon as we arrived, we began to hear 
cursings toward us and screamings at us. I could tell that the 
atmosphere became very tense, once the pro-Erdogan group saw 
us.
    Police just asked to stay where we are and we stood and 
simply began our chantings, as we did in front of the White 
House. I could tell that we didn't have enough police officers 
right away. There was about five or so police officers but they 
were doing their best job.
    And as we were chanting, I saw another group of about five 
people merging into existing group, pro-Erdogan's group, and 
running toward us. Those people were dressed differently. They 
were wearing dark sunglasses, and hacky t-shirts under 
unbuttoned shirts. They were wearing military boots, I think.
    And I saw water bottles were thrown to us, one of which hit 
my leg and I felt hurt. It hurt as if something was burning my 
leg. And I saw cell phones flying around. It happened very 
quickly. I didn't have a chance to think, to run away, or to 
protect myself.
    The next thing I know, I was on the ground and someone was 
kicking me in the head. I remember only one thought. I thought 
okay, I am on the ground; I don't even try to protect myself; 
what is the purpose of beating me? But then I lost unconscious.
    When I opened my eyes I think it was over. I tried to get 
up but my legs were very heavy. I don't know why. I believe 
police officer helped me to get up or sit and I felt a massive 
headache and pain around my neck, and back, and head. I got 
shocked when I saw my friends' bloodied face.
    That evening, I spent in George Washington Hospital, as 
well as all other injured, which were about eight or nine. The 
doctor gave me a pain killer and recommended to do a CAT scan 
to check my head condition but I refused because I don't have 
insurance yet.
    The next morning, I opened my eyes and I feel extremely 
dizzy. I closed my eyes but it just got worse. And I tried to 
get up in my room but I just collapsed. And I am very thankful 
to my friends who came and visited me. They convinced me and 
they took me to the hospital. As a result, I end up in E.R. to 
the George Washington again and I was diagnosed with minor 
brain injury. The doctor says that I have bruises on my brain.
    So, it will take me 6 weeks to recover. I think my time is 
over.
    [The prepared statement of Ms. Usoyan follows:]
       
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    Mr. Yasa.

  STATEMENT OF MR. MURAT YASA, LOCAL BUSINESSMAN AND PROTEST 
                           ORGANIZER

    Mr. Yasa. Good afternoon Chairman Rohrabacher and 
distinguished members of the subcommittee. Thank you for 
inviting me to testify today about the brutal attack on 
peaceful protesters, including myself, by Turkish security 
forces outside the Turkish Ambassador's residence on May 16, 
2017.
    I am proud father of U.S.-born children. My biggest 
accomplishment has been to provide my children the freedom and 
security that I was deprived of as a child in Turkey. So, 
imagine my disappointment and heartbreak when Erdogan and 
Turkish bodyguards violently attacked me for exercising my 
right to freedom of assembly on American soil.
    As somebody that takes pride in the fundamental American 
values, it was hard for me to explain to my children why I was 
attacked and why Erdogan's goons were able to escape the U.S. 
without any justice.
    For the past 30 years, I have attended countless protests 
because it is my right as an American citizen to do so. On 
Tuesday, May 16, 2017, I woke up early and I made my way into 
DC. I was there to protest against Erdogan as he visited the 
White House. I was there to protest against his direct attack 
on Kurds in Turkey. I was there to protest against unlawful 
imprisonment of Kurdish opposition. I was there to exercise my 
First Amendment Right. I was there as an American citizen.
    Thereafter, a small number of us decided to continue our 
protest in front of the Turkish Ambassador's residence. We 
arrived there at approximately 2:45 p.m. There was 15 of us on 
the sidewalk across the Ambassador's residence. Among us were 
women and children under the age of seven. Just briefly after 
arriving, we began our protest and condemned Erdogan for his 
direct attack on the Kurds and the Kurdish children.
    One of our slogans was dedicated to Mr. Selahattin 
Demirtas, who is the co-chair of the pro-Kurdish political 
opposition in Turkey. Mr. Demirtas has been unlawfully arrested 
and is still waiting for trial while in jail since November 
2016.
    Our posters were pictures of Mr. Demirtas. Our slogans were 
``freedom for Demirtas.'' Meanwhile, the pro-Erdogan supporters 
gathered across from us, across the street, were using 
insulting and vulgar words directed at us and children. After a 
verbal altercation, two pro-Erdogan supporters crossed the 
sidewalk and made their way into the street ready to attack us. 
The DC Police were able to intervene before the conflict 
escalated and attempted to get them back on the sidewalk.
    Thereafter, the police remained in front of the Turkish 
protesters and tried to prevent them from attacking us. But 
after a few minutes, Erdogan's bodyguards, dressed in black 
suits and ties, pushed their way through the DC Police and 
attacked our group.
    Erdogan's bodyguards were joined by the Turkish security 
personnel, as well as supporters. There was more than 50 of 
them, some armed, but all were ready to attack. They came at us 
with such a force that even the DC Police----
    Well, let me get into the detail of the attacking. Whey 
they attacked, three, four of them, and I saw the lady, Ms. 
Usoyan, was next to me, one of them has grabbed her and started 
to punch her face and kicking. And I tried to cover her, tried 
to cover her head but I couldn't and I fell down. Four of them 
jumped on me. As you see on the picture, I am the one carrying 
the megaphone. And they kicked me one after another on my face. 
And I tried to get up but I couldn't and I realized that they 
are not going to let me get up and respond. So, I just tried to 
cover my head and I was unconscious. I don't know how long I 
was there.
    When I get up, I saw it is bleeding all over and then the 
police officer, they have me.
    My time is over.
    [The prepared statement of Mr. Yasa follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
     
                              ----------                              

    Mr. Rohrabacher. Thank you, very much.
    Mr. Hamparian.

 STATEMENT OF MR. ARAM HAMPARIAN, EXECUTIVE DIRECTOR, ARMENIAN 
                 NATIONAL COMMITTEE OF AMERICA

    Mr. Hamparian. Thank you, Chairman Rohrabacher, for your 
very powerful and principle leadership on this issue. 
Congressman Cicilline, and Congressman Sherman, thank you as 
well.
    I have submitted a written statement and will touch on a 
few points in my spoken testimony.
    Last Tuesday's attack was, at its heart, not just an attack 
against Americans but an attack on American values. The facts 
of the attack, as well as last year's assault at the Brookings 
Institute are well-known to the subcommittee, as is Turkish 
record of aggression at home and abuse as well.
    As has been noted, I participated in the peaceful protest 
at Sheridan Circle and was a witness to the brutal assault. I 
was able to videotape much of it and share it with CNN, and the 
Associated Press, and others.
    Rarely, if ever, has a foreign government's attack against 
peaceful protesters on American soil been so thoroughly 
documented or so well-reported. Thankfully, as the chairman 
noted, because of vital video and social media, President 
Erdogan, today, is finding he can't sweep this under the rug or 
explain it away with the help of his P.R. people, his 
apologists, or his well-paid lobbyists.
    Having, by all accounts ordered this attack, he has gone on 
the offensive now, calling in our Ambassador and falsely 
accusing U.S. law enforcement of aggressive actions. What he 
ordered on the streets of our capital here in Washington, DC 
provides a small insight, but a very chilling insight, into the 
depth and the depravity of the violence visited every day upon 
citizens of Turkey out of our city and away from our cameras. 
Imagine how bad that is, if this is what they wanted to do in 
Washington, DC.
    These are the facts. This is pretty much where we are. We 
are, I think, as Americans, at a moment of reckoning on this 
issue, not simply about Erdogan but ourselves. We know who 
Erdogan is. Now it is time for him to understand who we are.
    This hearing, Mr. Chairman, is certainly about foreign 
policy. This is the Foreign Affairs Committee but, at a more 
fundamental level, it is about our shared American commitment 
to our First Amendment and our freedoms.
    The question before us is how will we respond to Ankara 
exporting its intolerance and violence to our shores. How will 
we respond to Erdogan's unapologetic attempt to bully Americans 
as he has bullied his own citizens? How will we answer 
Erdogan's arrogance?
    His attempts now, and these are disgraceful, to have us 
throw, have Americans throw our people, our police, and even 
our principles under the bus to avoid offending his irrational 
and hateful sensitivities is simply unacceptable. We cannot do 
that to the brave officers who sought to defend the protesters 
or the Americans who simply sought to give voice to their 
views.
    The choice is ours. I would humbly and respectfully offer a 
couple of suggestions. One is that President Trump can break 
his silence on the issue and forcefully condemn this attack on 
peaceful protesters in our nation's capital.
    Our Government, including our Department of Justice, should 
fully investigate and criminally prosecute the attackers, 
demanding that Turkey issue a blanket waiver of diplomatic 
immunity for all involved in this assault up and down the chain 
of command.
    Last Tuesday, let's be clear, last Tuesday was a crime. It 
was not a conflict. Multiple felonies committed on film in 
plain sight of U.S. law enforcement.
    The administration should, as Senator McCain and others 
have recommended, exercise our right to immediately expel 
Turkey's Ambassador from the U.S. This would represent both an 
expression of our national outrage but also a reaffirmation of 
our commitment to freedom of expression.
    Legislatively, we look forward to the passage of H. Res. 
354, which the committee favorably reported this morning and 
that has the support of the chairman and also the full 
committee chairman, Mr. Royce, and the bipartisanship of the 
House.
    We also, and this speaks to what Congressman Sherman said, 
we should also encourage the adoption of H. Res. 220, a 
bipartisan measure seeking simply to apply the lessons of 
Turkey's genocide against the Armenians, the Greeks, the 
Assyrians, and other Christians, in order to prevent future 
atrocities.
    Again, let's be very clear on this point. The same Recep 
Erdogan who attacks our people and disrespects our police is 
allowed to set U.S. policy on the Armenian genocide. This 
foreign dictator is the guy who green lights or stop lights 
whether or not Americans can speak out on a human rights issue 
and that is disgraceful.
    He has been allowed, and this is disgraceful as well, 
President Erdogan has been allowed to revel, to revel in the 
spectacle of arm-twisting Americans into silence on a known 
case of genocide documented in our own archives. He has bullied 
us into silence on our history and now he has his values in our 
sites. It must stop and it must stop here.
    In closing, let me thank you again, Chairman Rohrabacher, 
for your tremendous leadership on this issue. Let me also say 
that the public scrutiny is the best remedy for these types of 
things and, for that reason, this hearing is so very welcomed. 
Thank you, sir.
    [The prepared statement of Mr. Hamparian follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. That is why you wanted to have the 
Assyrian right away and let it sink into people's memory.
    Mr. Hamparian. Yes, sir.
    Mr. Rohrabacher. Ms. Wedgwood.

STATEMENT OF MS. RUTH WEDGWOOD, EDWARD B. BURLING PROFESSOR OF 
      INTERNATIONAL LAW AND DIPLOMACY, SCHOOL OF ADVANCED 
        INTERNATIONAL STUDIES, JOHNS HOPKINS UNIVERSITY

    Ms. Wedgwood. Thank you very much, Mr. Chairman, for 
convening this enormously important and very timely hearing.
    I used to be a prosecutor. I thought I was pretty tough, 
even when I was five-foot tall. And I was not particularly 
merciful to all of my defendants but I did think that I was 
doing something, not just in taking people off the street for 
its own sake, but deterring other people in engaging in like 
episodes. And I almost was killed, at one point, when the FALN 
bombed the Federal courthouse in 1982, when I was preparing my 
first RICO case. And my husband and I were there. We should 
have been goners but, happily, the bridge made of concrete 
quelled the blast.
    So, I know what it is, indeed, and I deeply sympathize with 
my colleagues here who have felt that they were at the brink of 
death because it is a possible event for human beings.
    As a prosecutor, certainly we did everything we could to 
try to quell terrorist groups with RICO and other measures. But 
I do think that to send the message now to Turkey, there does 
need to be fairly dramatic, demonstrative measures taken. 
Whether it hurts our tourist trade or not, I don't really care. 
I think this is a guy who is a thug; he's a gumba. He is not an 
ordinary human being. He has decided to be a bully. One could 
make the surmise that if he bullies individual people, he will 
tend to bully the region. Would he be a reliable ally? No. Does 
there have to be a change of leadership? Yes. I don't know how 
you do that. We have many modalities. We have sanctions. We 
have had other ways in the past.
    The Turks have always been mistreated, I think, in Germany 
by not being allowed to naturalized. I have always been in 
favor of allowing them to naturalize in Germany but it is going 
to be much harder to make that argument if Turkey, itself, is 
so grotesquely mistreating people who fall into its power.
    I know that it is complicated to quell ISIS and that there 
the kind of Game of Thrones that one has to play to keep 
alliances together is very, very tricky. But this kind of 
inconceivable, unabashed kvelling, if I may use a Yiddish word, 
kind of brutality will be copied by other countries around the 
world, too, if they see that it takes and it is effective.
    So, if you want a China that is not particularly more 
outrageous than usual on human rights and civil liberties, then 
you have to do something about Erdogan. And that goes 
throughout the region; Duterte and the Philippines have become 
very difficult. There is a copycat effect in the moral politics 
of human rights.
    So I would, indeed, endorse what the chairman has done of 
treating this with the utmost sobriety and making it plain to 
President Donald Trump that he can't be best buds with this 
guy; no skiing, no bowling, no hugs, rather, I would PNG him.
    Thank you.
    [The prepared statement of Ms. Wedgwood follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    Mr. Poe. Tell us what you really think.
    Mr. Rohrabacher. We will have Mr. Cicilline and then I will 
recognize Judge Poe, who has just joined us, and then Mr. 
Sherman, and I will do the wrap-up. And I would ask for 5 
minutes each, if I can.
    Mr. Cicilline. Thank you, again to our witnesses and I am 
very sorry that you had the experience that you had and seeing 
it on the video makes it even more disturbing.
    I think it is worth noting again that the response given by 
the Turkish Embassy was not only inaccurate, it was horrifying 
because it attempted to blame you, the victims, and others for 
the conduct of these security forces. And so it compounds the 
offense to this country and to citizens of America.
    I want to first just ask the witnesses who were there and 
observed this, did any of you actually seen President Erdogan, 
either before, during, or after the attack? Did anyone actually 
see him?
    Mr. Yasa. The position we were, we would never be able to 
see him.
    Mr. Cicilline. You wouldn't have been able to see him, 
okay.
    Mr. Yasa. But we realized that when he arrived, there was a 
noise came from his supporters and we understood he was there.
    Mr. Cicilline. And were able to see, any of you, where the 
attackers, the men in the dark suits, went after the attack?
    Ms. Usoyan. Where did they go?
    Mr. Cicilline [continuing]. They go after the attack?
    Ms. Usoyan. They came to attack us.
    Mr. Cicilline. Right and then after it was over, did you 
see where they went?
    Ms. Usoyan. They went back to the Turkish Ambassador's 
residency.
    Mr. Cicilline. Okay.
    Ms. Usoyan. Actually, they were in a very harsh conflict 
with DC Police officers.
    Mr. Cicilline. And you actually saw them go back into the 
residence of the Turkish Ambassador?
    Ms. Usoyan. Yes because I was asking police officers why do 
you guys don't arrest these people; you eye-witnessed this. And 
one police officer has asked me to identify some of them who I 
really remember and I identified some of them. But while I was 
identifying I could hear them screaming at some other police 
officers, yelling at them, saying you guys can't do your job 
and not competent.
    Mr. Cicilline. And that day or subsequent to that day, have 
each of you been in contact or have been interviewed by the DC 
Police Department?
    Ms. Usoyan. Yes, I have.
    Mr. Yasa. Yes.
    Mr. Hamparian. Yes, and we have provided evidence to the 
Secret Service and the DC Police.
    Mr. Cicilline. I do think that it is important to make 
mention that, as we think about the veracity of statements 
coming out of the Turkish Embassy, we must be reminded of the 
refusal of the Turkish Government to acknowledge the Armenian 
genocide. It calls into question not only their treatment of 
the three witnesses we have heard from but their willingness to 
accept the truth and to share that and so it should maybe not 
be surprising but it is still disappointing to see the 
statement that the Turkish Ambassador issued. And I appreciate 
you coming before this committee today and sharing your 
firsthand accounts of what is a deplorable incident and 
something that we have responsibility to address in a very, 
very serious way.
    Professor Wedgwood, my first question really is can you 
help us understand what legal recourse we have against the 
Turkish guards who were involved in this attack? Will all of 
them be protected by diplomatic immunity and is there a 
mechanism for Turkey to waive that immunity, if they wanted to?
    Ms. Wedgwood. If Turkey wants to offer the conceit, the 
fiction that this was not authorized from the top, then they 
would waive the immunity. They would say these were guys out on 
a holiday; they were having some fun; they got carried away; 
and, therefore, we waive their immunity. That would discourage 
other people in the security services from ever taking that 
role again, by the way.
    Mr. Cicilline. So, in other words, if the actions that 
these guards took was not authorized by the President of the 
country or its official, then they do not enjoy diplomatic 
immunity?
    Ms. Wedgwood. First, the lower down the food chain you get, 
the less immunity you have. So, permanent representatives at 
the U.N. or ambassadors get absolute full-tilt immunity. As you 
go down the rank order of the ordinary structure of an embassy, 
you get to official acts immunity pretty quickly. So a cook or 
a driver, at best, would have official acts immunity.
    One can make the argument none of this was official acts. 
Official acts are where you go across the street and you 
accidently stumble and hit a woman on your way vote at the 
General Assembly. But deliberate malicious attacks like this, 
these are not official acts.
    Mr. Cicilline. So doesn't that argue for charging these 
offices and letting them claim and prove that they are entitled 
to diplomatic immunity?
    Ms. Wedgwood. I might be inclined to have a little--I don't 
mean this in the way it is going to sound--fun just to take 
what happens to an ordinary perp when he's arrested.
    Mr. Cicilline. Right.
    Ms. Wedgwood. And then we can have a debate in court and it 
will go up to the Supremes on whether or not they are immune. 
But that, itself, is a very important kind of political--I 
don't use the word theater advisedly but it is an expose of the 
vulgarity of what they did.
    Mr. Cicilline. Thank you very much. I yield back.
    Mr. Rohrabacher. We are now joined by distinguished jurist 
but also a great member of the United States Congress from 
Texas, Judge Poe.
    Mr. Poe. I thank the chairman and thank all of you all for 
being here. All of you all is plural to y'all, in case you were 
wondering. Being from Texas, I just wanted to tell you our 
language.
    This episode that occurred against you three and the other 
protesters just makes me so mad that this would occur in the 
United States. How ironic it is that you are out there 
protesting and demonstrating for basic civil rights in Turkey 
and Erdogan and his Gestapo gang come over here and try to 
prevent you from having basic civil rights in the United 
States. I find that appalling.
    I mean I am a former judge. Don't hold that against me. But 
you know a constitution is a big deal. We are unique among 
nations because we have this concept of the Bill of Rights. And 
the First Amendment is first because it is the most important 
amendment. And the right to free speech and peaceably assemble 
are both in the First Amendment, two of the five. And I am 
convinced they are there because that First Amendment is the 
most important. If you don't have that one, you don't have the 
rest of them.
    And so I find this very disturbing. What I saw on the video 
is what most people did see, that all of a sudden, here comes 
this gang of folks and start beating up people who are just 
exercising the First Amendment in the United States.
    And I find it reprehensible that a tyrant from another 
country would come to the United States and violate our basic 
Constitution so flagrantly. And I saw him in the video and he 
is looking at what is taking place. And then he casually goes 
on into the embassy for supper or whatever they were doing.
    So, it seems to me that there needs to be some 
consequences. And on the diplomatic level, I am not sure what 
they ought to be. I have been called a lot of things but I have 
never been called diplomat. And I find this something that we 
just have to deal with--foreign power in the United States 
violating the First Amendment of the Constitution. That is a 
big deal when that happens and you can prosecute all the cases, 
as far as I am concerned. Ms. Wedgwood, you'd be glad to do 
that.
    Do any of you believe or know that the attack was ordered 
by Erdogan or was it made by a decision of the security folks. 
Do any of you know that? Does anyone want to answer that?
    Mr. Hamparian. I can tell you at the time I felt, I was 
convinced that an order was given and the guys attacked because 
it felt like that. There was a tension in the air and then 
someone pulled a trigger and the attack started. But that is 
all I knew. It was just a feeling from the other side of the 
street.
    And then when I watched the video of President Erdogan's 
guards and some journalists did like a frame-by-frame analysis, 
and they did some audio analysis where they pulled--played with 
the audio in order to be able to hear exactly what was being 
said, and that confirmed in my mind my hunch that this was 
ordered.
    And it seemed very much, from the video, that the word came 
from the car, where President Erdogan was sitting, to his 
advisor, to a bodyguard, and then boom, all within 5 seconds.
    Mr. Yasa. In Turkish, he says [speaking foreign language.] 
means this is what he says. He says, attack, attack in that 
video.
    So, we have no doubt that the order comes directly from 
Erdogan.
    Ms. Wedgwood. And at a minimum, he could have turned it off 
right away and he didn't.
    Mr. Poe. Well, that is what I was saying. He is standing 
there watching it. Rather than say stop, he goes into the 
embassy or the Ambassador's house, like just utter contempt for 
protesters.
    Are the three of you all going back out there and 
protesting some more in front of the Turkish Embassy?
    Mr. Hamparian. Judge, if you are there, we have your back. 
We will be there any day, any time, night or day.
    Mr. Cicilline. He already offered in the Foreign Affairs 
Committee to go jointly.
    Mr. Poe. We got a lot of yays in the Foreign Affairs 
Committee to go back out there with you and protest, mainly 
protesting the denial of free speech.
    Mr. Hamparian. I think simply the presence of Members of 
Congress in that circle at any time, at a time that works for 
the Members, even if it is a short visit, it would be so 
powerful and so symbolic. Offer some remarks and, basically, 
remind the Turkish Government that that soil is American soil.
    I felt very strongly--this is a hunch I had, again on the 
day of--was the people who did the attacking felt like this was 
their world. There was no hesitance, no reticence whatsoever. 
There were police telling them to stop and they ignored it the 
way I have never seen anyone ignore the police on American 
soil. It was total arrogance; this is our place. And let's 
remind them, that is not their place. Sheridan Circle is ours, 
it is American.
    Ms. Wedgwood. And if I could just add, Congressman, that is 
a diplomatic neighborhood, the American Society of 
International Law, which has a townhouse, which they finally 
paid off, is about 15 degrees around the circle and there are 
lots of other diplomatic establishments there. So, this is like 
the schmatta district for diplomats.
    Mr. Poe. Well, as far as I know, this has never happened in 
the United States by any other embassy that has been here or 
any other ambassador or head of state.
    Once again, I find this appalling.
    I thank you for the extra time, Mr. Chairman. I yield back 
to you.
    Mr. Rohrabacher. All right, so the word is out to the 
Erdogan Gang; Judge Poe is on the way and he is taking the 
posse. He's bringing a posse with him, including me.
    Mr. Yasa. Can I say something?
    Mr. Rohrabacher. Yes, sir, and then Mr. Sherman.
    Mr. Yasa. Oh, I am sorry.
    Mr. Rohrabacher. Go ahead and say it.
    Mr. Yasa. Well, I am definitely going to go protest Erdogan 
in front of the Turkish Embassy but this time I am not only 
carrying the megaphone, I want to make sure I have a baseball 
bat, too.
    Mr. Rohrabacher. Mr. Brad Sherman.
    Mr. Sherman. Yes, before I focus on the events of the 
embassy, Ms. Usoyan, the Ezidi people are among the or probably 
the most oppressed people from ISIS. Which countries and groups 
in the area have provided safe haven or otherwise cooperated in 
the protection of the Ezidis?
    Ms. Usoyan. Well there have been a lot of countries that 
accept Ezidi refugees.
    Mr. Sherman. I mean in the area. I know that do.
    Ms. Usoyan. So, as you know, I have traveled to the region 
and I saw very protected Ezidis in Northern Syrian, which is 
under control of YPG currently, because their rights as Ezidi 
minority have been respected. They have not been placed in the 
camps with Muslim refugees or even Christians. They have 
separate camp and they were very thankful for what they have.
    Mr. Sherman. So the YPG has been helpful. Any other groups 
that have protected the Ezidis there?
    Ms. Usoyan. Yes, in the attack, in the August attack it was 
YPG who created Green Corridor and about 50,000 Ezidis, they 
flee to Northern Syria.
    As of today, I visited the camp which is hosting 5,000 
families.
    Mr. Sherman. And how has the Turkish Government treated the 
Ezidis?
    Ms. Usoyan. Well, there was a case last year that Ezidis 
were trying to travel to Hungary and they were beaten up and 
placed in the prison. Yes, and now there was only a few camps 
that was under districts or control of HDP. So, that right has 
been taken away from HDP and Ezidi refugees has been spread all 
over the Turkey. So, it is very, very difficult for Ezidis for 
to survive in Turkey.
    Mr. Sherman. I want to now focus on a reaction to this 
Turkish outrage. Erdogan lives by fanning grievance mentality 
in Turkey. And I don't want to help him do that. At the same 
time, we need to respond.
    We have got Mr. Gulen living in the United States. The 
Turkish Government has made a number of claims for his 
extradition. I think we have to declare very firmly they have 
got no credibility. There is nothing that makes me feel better 
about Mr. Gulen than the attacks that come from Ankara. I mean 
I was suspicious of the guy until I heard the attacks from 
Ankara.
    There is no credibility in the charges and certainly no 
credibility that if he were ever to be in Turkey that he would 
be treated with justice.
    We can expand our involvement with the YPG. We have already 
decided to do that, now that Mr. Flynn is no longer making 
these decisions or helping to shape them.
    We haven't talked about forcing them to waive civil 
liability but those who suffered should be able to sue the 
Turkish Government. There is more than ample evidence. And 
perhaps that being an economic matter, we can tie it, as I said 
before, to allowing Turkish debt to be sold in the United 
States or purchased by Americans.
    We have already talked about expelling their ambassador. 
Obviously, our failure to recognize the genocide emboldens 
Erdogan every day.
    From amongst this pallet of possible reactions or others, I 
would like our witnesses to say what do we do that demonstrates 
to the Turkish people that this kind of thuggery is harmful to 
their interests? What do we do to punish and seek recompense 
from the Erdogan Government without playing into his grievance 
game?
    Ms. Usoyan. If I may, I really have a good list of 
proposals and I think you will just smile and you would agree 
with me but I just want to make sure that this hearing has a 
follow-up and Turkish Government will proceed to see the 
consequences from U.S. authorities. Because if next time, let's 
say, President Erdogan, he comes, I will make sure to go to the 
front line and begin to chant whatever I was chanting on 
Tuesday, May 16th but I am just afraid that if we let this go 
unnoticed or unfollowed, they will just kill us next time.
    And social media has covered it worldwide and I receive 
messages from all around the world. It doesn't show our 
leadership as strong if such action is happening.
    Mr. Sherman. Do we have anything to add, keeping mind that 
persuading the Trump administration to do anything, I mean we 
got a statement out of Tillerson, has been difficult. Some of 
these things could be done by Congress.
    So, Mr. Hamparian.
    Mr. Hamparian. It is in the President's hands but the 
expulsion of the ambassador I think would send a good message. 
That is the language of diplomacy. And also, Ambassador Kilic 
is a partisan to this issue. He is not, in my opinion, sort of 
career foreign service guy. He's a Erdogan guy. He was out 
there yelling at the cops. That is the right message and I 
think it would be the right one to send.
    Mr. Sherman. And Congress could, of course, pass a 
resolution calling upon him to be expelled and, perhaps going 
further, in declaring that Members of Congress shouldn't meet 
with him.
    And Ms. Wedgwood, if you have----
    Ms. Wedgwood. Oh, I am trying to be creative. He doesn't 
necessarily need the big residence that he has. If somebody is 
here, ordinarily, one respects the suggestion of the Government 
as to what grand house on Massachusetts Avenue they might 
choose to inhabit but it doesn't--and I suppose the property 
is--it would be interesting to look at the title to the 
property and see who owns it.
    But certainly, in his ambassadorial function, that can be 
taken away, or one can demand that it could be for a much 
smaller, darker----
    Mr. Sherman. I am worried about the tit for tat and I am 
especially worried about the safety our diplomats in Ankara.
    Ms. Wedgwood. That is true.
    Mr. Sherman. Any other comment? I have gone over. I yield 
back.
    Mr. Rohrabacher. Thank you very much, Mr. Sherman.
    I remember years ago there was a movie about guys in black. 
Do you remember that movie? It was the Men in Black. The Men in 
Black and I am looking at these guys running across the way in 
their black outfits. I mean this is right out of a sick B 
movie. The Men in Black, they were out to expose monsters. In 
this movie, the men in black are the monsters and they are 
working for the monster who is watching on the side.
    Brad, you made a good point about Gulen, about we remember 
this, the perception that we now have of the Turkish Government 
and of Erdogan, himself, has now been shaped and changed 
forever. He will never--he can come and beg forgiveness all he 
wants. We have his number now.
    The American people, we have tried our best to reach out to 
Turkey, trying to give every benefit of the doubt. I had four 
hearings on Turkey trying to make sure, in each one of them, 
trying to make sure that they knew exactly how we appreciated 
the friendship of the Turkish people, especially during the 
Cold War. And what this has done now is exposed us to the fact 
that they have an oppressive government there that is totally 
different than those people who worked with us during the Cold 
War.
    They are no longer our friends because the President, the 
head of their country now, can watch this and then call our 
ambassador in to castigate us, after seeing this firsthand. He 
saw this firsthand.
    One wonders then, when he talks about Gulen, we have to 
take into consideration what he did here. Obviously, you have a 
fascist megalomaniac in charge of the Government of Turkey who 
is so consumed with his own power that he thinks that he can 
call people together and tell us that we are wrong, when we see 
our citizens being beaten into the dirt, American dirt.
    So, we must take that into consideration when he--this is 
the guy he wants to close down all these schools. The Gulen 
movement--after this, we should note the Gulen movement is 
probably a very positive thing. Those of us who are kind of 
okay, what is this all about, well this should cement what we 
think of them.
    We also needed to know what we thought about the supposed 
coup that took place in which Erdogan, himself, assumed so much 
power using the supposed coup as an excuse. If Erdogan can sit 
and watch this and then ask us for an apology, what does that 
tell us about his honesty in dealing with his own people? I 
would say that if there was ever any doubt that that was a 
phony coup, that Erdogan has used in order to destroy his 
opposition or anyone who disagrees with him in Turkey, this 
should settle those issues as to whether or not he is a 
megalomania fascist or whether not he is just a president who 
is in a volatile situation.
    I would ask my colleagues to, again, join me in working 
with Judge Poe. If this man tries to come, I have pledged today 
at the hearing that I would be of Judge Poe outside that 
embassy.
    Now, a couple last thoughts. And that is, look, this is not 
the first time this has happened in America. Okay? There have 
been other cases where dissidents have been here and they have 
been beaten up. The Chinese I know, about 10 years ago, we saw 
this happen with some Chinese--in fact it might have been 20 
years ago now, when you had Chinese people demonstrating and 
they ended up being beaten up by people coming from out of 
their embassy. That doesn't happen anymore. We put a stop to 
that.
    But you know this isn't something that we can--as we have 
said here today, this will determine who we are. After all 
these words, what I just said what Erdogan is, what we do now 
will determine who we are. That will determine also what kind 
of President we have.
    I will have to say that I am a little disturbed. And of 
course, I am one person who tries to put things in perspective. 
I would say this is, if the State Department can deal with this 
when they are so tough on what the Russians, whenever the 
Russians get out of line, and I voted with you today in 
condemning the Russians who got out of line, that tells us 
something. We need to make sure that things are in perspective 
and Erdogan has now defined for us that perspective. We expect 
that, as Americans, we will make sure that he understands that 
he is the one who set the rules. He's the one who has 
established the perception and the type of relationship we will 
have and it is not going to be like it was 10 years ago with a 
friendly Turkish Government, where we tried to give them the 
benefit of the doubt every time we could. That will not happen 
again.
    So with that said, I am going to give each one of my fellow 
members 1 minute to end and then I am going to give you guys 
the last say for 1 minute.
    Brad, you have got 1 minute.
    Mr. Sherman. I think it has been said. This is a test of 
who we are and how we react. And I look forward to working with 
members of the subcommittee to do more than token responses, 
until such time as Erdogan formally and personally apologizes 
for what happens.
    Mr. Cicilline. Thank you again, Mr. Chairman. You know when 
we speak about foreign policy, we typically speak about the 
best interests of the American people and the national security 
interests of the United States. We don't typically contemplate, 
in the discussion of foreign policy, that it implicates the 
protections of the American people on our own soil from violent 
actions of a foreign government.
    But I think the chairman is right. This is a moment in 
which the commitment of the United States, in terms of our 
basic human rights, our basic freedoms, that we are so proud 
of, that we hold up to the world, our commitment to that will 
be tested by the way that we respond to the actions of a 
foreign government coming to America and attacking people who 
are peacefully protesting, which is a bedrock of our democracy. 
And I promise, as a member of this subcommittee, and as a 
Member of Congress, I will do all that I can do to vindicate 
those sacred rights and insist that the Turkish Government, 
that President Erdogan accept full responsibility for his 
conduct and that we stand strong in the view of the rest of the 
world with respect to our commitment to important human rights.
    And with that, I yield back.
    Mr. Rohrabacher. Judge Poe.
    Mr. Poe. Thank you, Mr. Chairman. I think our message 
should be to the tyrant that you don't mess with American 
citizens and their constitutional rights or you will rue the 
day that you ever did.
    Now, let us make sure there is a consequence for what 
occurred against you.
    I yield back to you, Mr. Chairman.
    Mr. Rohrabacher. And I will yield 1 minute to each of our 
witnesses to sum up. One minute, then we have got to go.
    Ms. Usoyan. Well, I have always been proud to be citizen of 
America, of United States of America. Now, seeing a great 
response from Congress, from Senate, from fellow Americans, I 
feel so thankful and so grateful for the fact that I am on this 
land, and that my rights are protected, and I have people who 
care deeply about me. I feel very much loved and I really 
appreciate all of your work.
    Mr. Yasa. Thank you so much. It is my honor to be here in 
front of you. And it is my also honor to be American citizen. 
And the best thing I gave my children, they were born here and 
they are American citizens that is the best thing that happened 
to them.
    And last sentence, as a Kurd from Turkey and American 
citizen, if this is what they do to us here, imagine what they 
do, the Kurds, Armenian, Greek, others against the Government 
in Turkey, what they do.
    Mr. Rohrabacher. Excellent point. Thank you.
    Mr. Hamparian. I would just offer that probably within 
minutes of this video going viral, the Turkish lobby kind of 
like started racking up their billable hours and they are going 
to work the State, they are going to work The Hill, they are 
going to work the White House, they are going to do all that 
stuff to try to manage this process, and dumb it down, and get 
us past it, and cover it up, and explain it away.
    So I would simply say I encourage the subcommittee, 
respectfully encourage the subcommittee to follow-up with DOJ 
and to follow up with the DC Police just to make sure that 
these prosecutions move forward. There were multiple felonies 
committed on film. Some of them were diplomatic and some are 
out of the country. Others are here and the prosecution should 
move forward. If they don't move forward, that will be the 
barometer. That will be the canary in the coal mine that this 
is getting massaged and covered up.
    Ms. Wedgwood. I would do two things. One is I would have 
one of you gentlemen or all five of you--four of you--five of 
you to have a mano a mano with President Trump and make clear 
to him, in private, why he ought not to cozy up to this guy 
because I am not sure that there has been enough distance from 
the White House, vis-a-vis Erdogan. And it is just bad mojo all 
the way around, if the White House appears to be congenial.
    I also would be curious where Erdogan keeps his money. 
Everybody has offshore accounts, Channel Islands. You name it, 
they have got it. And while I am sure he has his fortunes 
scattered around the world, it would be interesting to know and 
it is not that hard to find out nowadays where folks have their 
money. And if there are people who have suffered damages as a 
consequence, when and if he leaves office, or if some country 
chooses to take a narrow interpretation of Presidential 
immunity, there are suits to be filed and fun to be had.
    Mr. Rohrabacher. Thank you. I want to thank all the 
witnesses on behalf of these United States. U.S., it is just 
us. That is all it is, the United States, every race, every 
religion, and every ethnic group made up in this family of 
Americans. And we will determine what we are outraged by and 
act upon what our values really are not just what our words 
are. If he attacks one American, he attacks all.
    This hearing is adjourned.
    [Whereupon, at 1:19 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
                                  [all]
</pre></body></html>
